     COOPERATIVE ADMINISTRATIVE

       SUPPORT UNIT PROGRAM

                    EXECUTIVE REPORT

    AN ASSESSMENT BY USERS AND LOCAL OFFICIALS




                       RICHARD P. KUSSEROW
                        INSPECTOR GENERAL




OAI- 06-89- 00860                            JUNE 1989
                                EXECUTIVE SUMMARY


PURPOSE

The pricipal  purose of this study was to conduct a qualitative user evaluation of the Cooper­
ative Admstrative Support Unit (CASU) Program. A secondar objective was to analyze
the perspectives of CASU management and governing offcials on the strngths and
weakesses of the CASU concept and its implementation. This report was prepared at the re­
quest of the national CASU board and staf.

BACKGROUND

The CASU Progr is a Government-wide program, sponsored by the President s Council on
Management Improvement (PCMI, which operates under authority of Section 601 of the
Economy Act of 1932. At the national level, the PCMI established ' a CASU Progr Na­
tional Board of Directors which sets policy, provides guidance, approves lead agencies and
charers CASUs. In addition , a national interagency sta was organized to serve as a focal
point for day-to- day operations of the national CASU Program. The local CASU support strc­
tur includes policy diction from a tenant board of directors, and managerial diection from
a lead agency. The day-to- day operations of the local CASU ar supervised by a local CASU
dictor.
The CASU Progr was established under the concept that local Federal agencies could coop­
eratively combine their resoures to share common administrtive services at reduced costs
and with better service quality. Under the CASU concept, building tenants jointly shar in es­
tablishig and managing an administrative support unit that provides, on a reimbursable basis,
admistrative services commonly needed by its members.

METHODOLOGY

This inspection is based on a mail survey, onsite strctured interviews and selected back­
ground and inonnational materials provided by the national CASU staff. Our findings are
based on a tota of 155 respondents, including 34 CASU management and governing offcials,
80 curent and fonner CASU users, and 41 potential users at 13 of the 14 currently charered
CASUs which were operational or projected to be operational by the end of the second quarr
of Fiscal Year (F) 1989.

FINDINGS

CASU User Satisfaction Is High

    The CASU users are very satisfied with the services they ar   receiving and   rate service
    quality high.

    The CASU users are very pleased with their participation and expect to continue with the
    CASU.

    The CASU service effectiveness indicators are positive. Overall , 91 percent of the users
    say the CASU has effectively handled their needs. Most users (about 4 of 5) say the
    CASU promptly handles and effectively resolves service complaints.

The Extent Of Cost Savings Is Uncertain

    Both users and CASU offcials think cost savings are very importt but neither have a
    goo grsp of the extent to which dollar or full time equivalent (FT) sta savings
    being realized by CASUs.

Users And Local Offcials See Local CASU Management As Effective, But Annual Evalua­
tions And Periodic Audits Are Needed

    The CASU users give high marks to the general management provided by CASU diec­
    tors, lead agencies and tenant boards.

    Users ar generally pleased with CASU management of marketing, customer communica­
    tions and biling procedurs.

    However, evaluations and audits deserve more emphasis. Current policy requirements for
    user evaluations of service delivery and periodic fiscal audits ar somewhat unclear. Rela­
    tively few CASU evaluations or audits have been conducted or planned.

Local Offcials View National   CASU Policies And Program Management As Basically
Sound, But Local Managers Need More Implementation Help And Suggest Other Changes

    Local offcials believe national CASU policies, guidelines and progr assumptions are
    sound and workable. Local offcials view the national CASU board and staf as generaly
    effective. How ver, they desire some changes to strngthen the perfonnance of both the
    board and sta. Local managers express a strong need for more implementation help
    from the national staf in becoming successfully operational.

    Overal , local offcials see the CASU Program as successful , despite its implementation is­
    sues. They are somewhat uncertain about the currnt   implementation pace and goals
    the CASU Program. Nevenheless, they say the program is successful and has significant
    cost saving potential.
RECOMMENDATIONS

Annual User Evaluations and Periodic Fiscal Audits

     The national CASU staf and board should 1) fonnalize policy to require annual evalua­
     tions of CASU service delivery and user satisfaction , as well as periodic fiscal audits by
     the lead agency inspector general or audit agency, and 2) develop suggested simple and
     practical protocols for conducting these evaluations and audits.

Cost Savings

     The national CASU sta should seek to 1) quickly determe the extent to which verifi­
     able savings are being achieved in existig CASUs, 2) assur an accurate and complete
     cost baseline is established when new CASUs are added to the program , 3) establish an
     effective mechanism to track cost saving accomplishments over time, and 4) move to the
     fullest application of unit cost pricing of services in al existing and new CASUs.

Implementation Assistance

     The national CASU staf should provide more CASU assistance for achieving successful
     operational status and overcomig implementation problems. To this end, the staff should
     develop generic technical assistance guides and "How To " implementation guidelines for
     the most common CASU core services.

COMMENTS ON THE DRAFT REPORT

We shard the draft of this report and the supportg technical report,     with the   CASU Pro­
gram National Board of Dirctors and the CASU national staff. They generaly agree with the
report findigs and concur, with only minor qualifcations, with all our recommendations.
The full text of their comments is included in the appendix.

TECHNICAL REPORTS

For furer detals on user and local offcial assessmentS' of the CASU Program and national
and local improvement options the reader should also examne the three companion technical
repons: 1) "User Assessment of Services; " 2) "User and Governing Offcial Perceptions of
Local Management; " and 3) " Local Offcial Perceptions of National Policies and Implementa­
tion. "
                                                 TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION

PURPOSE

BACKGROUND

METHODOLOGY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS.
                                                                            .............................3
            CASU Service Patterns Vary Considerably. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

            CASU User Satisfaction Is High. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      ..........4

            The Exent Of CASU Savings Is Uncertain
 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

            Both Users And Local Officials See Local CASU Management As
            Effective. . . . . . . . . . . . . . . . . .                                                          .......7

            Local Officials View National CASU Policies And Program
            Management As Basically Sound, But Local Managers Need More
            Implementation Help And Suggest Other Changes
 . . . . . . . . . . . . . . . . . . . . . . . . . 9

RECOMMENDATIONS.



COMMENTS ON THE DRAFT REPORT....................................... 13

TECHNICAL REPORTS

APPENDIX               COOPERATIVE ADMINISTRATIVE SUPP..ORT UNIT PROGRAM
                       COMMENTS ON OIG FINDINGS AND RECOMMENDATIONS . . . . . . . . 14
                                     INTRODUCTION



PURPOSE

The pricipal  purose of this study was to conduct a qualitative user evaluation of the Cooper­
ative Admistrative Support Unit (CASU) Program. A secondar objective was to analyze
the perspectives of CASU management and governing officials on the strngths and
weakesses of the CASU concept and its implementation. This report was prepared at the re­
quest of the national CASU board and staf.

BACKGROUND

The CASU Program is a Government-wide progr, sponsored by the President s Council on
Management Improvement (PCMI, which operates under authority of Section 601 of the
Economy Act of 1932. Under the CASU concept, agencies in multi-tenant, federaly occupied
buildigs jointly shar in establishing and managing an administrative support unit that pro­
vides, on a reimbursable basis, administrative services commonly needed by its members.

In October 1985, as par of a shard services initiative, the heads of the Genera Services Ad­
ministration , the Offce of Management and Budget , and the Offce of Personnel Manage­
ment, issued a joint memorandum to the heads of all Federal agencies introducing and
encouragig support for the CASU Program.

To ensur strong policy support at the national level, the PCMI established a CASU   Progr
National Board of Dirctors. The national board sets policy, provides program guidace, ap­
proves lead agencies and charers CASUs. A national interagency staff has also been organ­
ized to serve as a focal point for day-to- day operation of the national CASU Progr. The
staf advises the CASU board on policy and progrm issues and provides technical assistace
in organzing and opera ing CASUs.

The national board has established a prototye strcture for local CASUs which includes pol­
icy control and diection from a tenant board comprised of CASU service users or potential
users. A lead agency, selected by the tenant board of directors, provides admnistrtive man­
agement support to the CASU in such areas as financial management, stafng, personnel ser­
vices, etc. The day- to- day diection and management of the CASU staff is provided by a
CASU diector.

Through marketing and intervention by the national CASU staff, the CASU Progrm recruits
Federa agencies located in a single building or cluster of buildings to become members of a
local CASU and to parcipate in its development, organization , and management. Recruited
CASU sites underte a feasibilty study to detennine if a CASU could successfully operate at
their site, what admnistrtive services their CASU should provide, and how a CASU could
most effectively supply these services.
Once the decision to establish a CASU has been made, its prospective members establish its
operating plans through a series of interagency memorandums of understanding. The national
CASU board reviews these plans and, if appropriate, grants a CASU charer to the local site.

Curnt CASUs provide such services as mail, moving and labor, physical fitness, shipping
and receiving, photcopying, personal property management, conference and training room
scheduling, child car, imprest fund and employee assis tance progrs. These services may
be provided diectly by the CASU staff, through shared services arangements from the lead
agency or other CASU parcipating agency or secured through private contracts. By consoli­
dating services, the CASUs expect to provide less expensive, more accessible, and better qual­
ity services. The CASUs also expect to standardize and share administrative systems,
accelerate use of automation , and to improve management infonnation systems.

Curntly, operational CASUs exist at the following locations: Anchorage, Alaska; Atlanta
Georgia; Chicago, llinois; Cincinnati, Ohio; Cleveland, Ohio; Denver, Colorado; Fort Worth
Texas; Jackson, Mississippi; Indianapolis, Indiana; Kansas City (12th Stret), Missour; Los
Angeles, California; New York City (Javits Building), New York; and, Seattle, Washington.
Additionally, five CASUs have been charered at these locations: Boston , Massachusetts;
Fresno, Calfornia; Kansas City (South), Missouri; New York City (Varck Stret), New York;
and, Pittsburgh, Pennsylvania.

METHODOLOGY

This inspection is based on a mail survey, onsite strctured interviews and selected back­
ground and infonnational materials provided by the national CASU staff. Our findings are
based on a tota of 155 respondents, including 34 CASU management and governing offcials,
80 cunent and fonner CASU users, and 41 potential users at 13 of the 14 currntly charered
CASU s which were operational or projected to be operational by the end of the second quarer
of Fiscal Year(F) 1989.
                                          FINDINGS



The results of our surey show that, overall , CASU user satisfaction is high. However, there
is uncertainty about the extent of cost savings. We also found that users and local offcials see
local CASU maagement as effective, but that annual evaluations and periodi audits
needed. The surey results also showed that local offcials view national CASU policies and
progr management as sound, but local managers need more implementation help and sug­
gest other changes.

What follows is a synopsis of the survey results which support the major findings above.



    CASU SERVICE PATTE RNS VARY CONSIDERABLY.

    A.   CASUs OFFER A WIDE VARIET OF SERVICES.

         The CASUs reviewed offer 28 different services. The top six services are mai, mov­
         ing and labor, physical fitness, shipping and receiving, photocopy, and excess per­
         sonal propert. The number of services each CASU offers vares widely, raging
         from 3 to 13 services, with an average of 6 offered services.

    B.   THE EXTENT OF UTIliZATION OF CASU SERVICES ALSO VARIES

         CONSIDERALY.

         The number of users at each CASU vares significantly, ranging from a low of 7 to a
         high of 35, with an average of 17 users.

         In none of the CASUs do all users paricipate in all services.

         A majority of users paricipate in all offered services in only two CASUs.

         However, in six CASUs a strong majority of users (77 to 100 percent) use at least
         one- half of the offered services.

    C.   MOST CASUs   OF 10) SAY THEY ATTEMPT TO ASSESS THE BEST METHOD
                        (9

         OF SERVICE DELWERY, I. E., DIRECT STAFF PROVISION, UNDER PRIVATE
         CONTRACT OR THROUGH SHARED SERVICE , FOR THE SERVICES THEY
         OFFER.
II. CASU USER SATISFACTION IS HIGH.
   A.   USERS RATE CASU SERVICE QUALIT HIGH.

        Most users (86 percent) rate the overall quality of CASU services as either excellent
        or goo.

  HOW DO YOU RATE THE OVERAL
  QUAL OF CASU SERVICES?
                  Very por (1)- 1.5
                       Poor (1 )- 1.5   0/0-

                      Fair (7)- 10.   6%--
                                                                                               Goo
                                                                                        (27)-40.


        A strong majority report the following positive ratings for the specific services they
        receive:

                high satisfaction wi th the CASU service;
                better service responsiveness or timeliness under the CASU;
                better servce quality under the CASU;
                improved customer convenience due to the CASU;
                goo customer control over service delivery under the CASU; and,
                improved overal service availabilty under the CASU.


   B.   USERS ARE GENERAY PLEASED WITH CASU PARTICIPATION.

        Most users (89 percent) would stil opt to parcipate in the CASU if they had it to do
        over again.

        Most users (92 percent) say their agency wil   likely continue paricipating   in the
        CASU in the future.

   C.   CASU SERVICE EFFECTWENESS INDICATORS ARE POSIT WE.

        Overall , 91 percent of the users say the CASU has effectively handled their service
        needs. Only five u ers indicated their agency s service needs have not been met by
        the CASU.

        Most users (about 4 of 5) report that when service issues or complaints arse, the
        CASU generally handles them promptly and resolves them effectively.
        Servce accessibility since CASU establishment is improved (57 percent) or about the
        same (37 percent) for most users.

                 Due to the CASU' s establishment, new or additional services became
                 available to 68 percent of the users.

                 The CASU services are equally available to both large and small tenants,
                 according to 90 percent of the users.


        The CASU staf generally have suffcient skils          and training   to deliver services effec­
        tively, according to 90 percent of the users.

        As indicators of CASU service responsiveness, 45 percent of the users say their
        CASU has modfied          existing    services to better serve their needs, and 34 percent re­
        port their CASU has added          new   services to better meet their needs.

III. THE EXTENT OF CASU COST SAVINGS IS UNCERTAIN

   A.   USER PERCEPTIONS VARY WIDELY ABOUT THE CASU EFFECT ON THE
        COSTS OF SERVICES DEUVERED.

        For example: 1) 27 percent report costs decreased; 2) 27 percent report no changes
        in costs; and, 3) 38 percent report costs increased under the CASU.

   B.   SOMEWHAT HIGHER SERVICE COSTS ARE THE TOP CONCERN USERS
        EXPRESS IN RATING THE SPECIFIC CASU SERVICES THEY RECEIVE:

        Twenty- four percent of users, or 40 of the 164 service ratings, say service costs
        either somewhat or much higher under the CASU.

        Thireen percent of users, or 21 of the 164 service ratings, say cost-effectiveness is
        either somewhat or much worse under the CASU.

   C.   VERY FEW USERS REPORT ACHIEVING DOUAR OR FUll FIME
        EQUIVALENT (FTE) STAFF SAVINGS THROUGH CASU PARTICIPATION

        Only 11 users (14 percent) indicate some dollar savings , ranging from $l OO.
        $97,   , with an average of about $18, 313.

        Twenty users (26 percent) report no savir.gs have been achieved. Forty- five users, or
        59 percent, did not respond regarding dollar savings.
     Only six users (8 percent) say that some FT savings were achieved. However, 21
     users (28 percent) say no FT savings have been realized. Forty-nine users (64 per­
     cent) did not respond regarding FT savings.

     Most of the dollar or FT savings users report are classified as " best estimates " not
     based on actual data.

D.   MOST CASU DIRECTORS WERE UNABLE OR CHOSE NOT TO PROVIDE
     OVERAL ESTIMATES OF DOLLA AND FlE SAVINGS ACHIEVED BY THE
     CASU FROM INCEPTION.

     Only 4 of the 10 operational CASUs were able to provide rough estimates. None
     the CASUs said their estimates were based on actual data.

     Reported total cumulative dollar and FT staff savings realized at these four CASUs:

                       Dollar Savings                  $ 1, 278, 000
                       FTE Savings

E.   IT APPEARS THAT LEAD AGENCY AND CASU INDIRECT COSTS ARE
     SOMEIIMES ABSORBED RATHER THAN BILLED TO USERS.

     While most users (62 percent) think users get biled for lead agency and CASU indi­
     rect costs, 11 percent of users say the lead agency or CASU sometimes absorb these
     costs and 24 percent do not know.
IV. BOTH USERS AND LOCAL OFFICIALS SEE LOCAL CASU MANAGEMENT
    AS EFFECTIVE.

   A.    CASU GENERA MANAGEMENT AND DIRECTION ARE RATED HIGH.

         Curnt users give high marks to the general management and direction provided by
         CASU directors, lead agencies and tenant boards.




                USER EVALUATIONS OF GENERAL MANAGEMENT AND
                DIRECTION PROVIDED BY THE CASU DIRECTOR , LEAD
                            AGENCY, AND THE TENAN BOARD

                                                                                  excellent

                                                                             l1 good


   60%
                62"1
                                                                             Ii fair
                                                                                  poor
                                                                            o don t know

   40%



   20%                                                            17"1




            CASU DIRECTOR          LEAD AGENCY         TENANT BOARD
                                   RATED GROUPS
 TOTAL RESPONSES:           CASU DIRECTOR - 44
                            LEAD AGENCY -    30
                            TENANT BOARD -   23




  B.     IMPROVED UNDERSTANDING OF CAW GOVERNING ENTIT ROLES AND
         RESPONSIBIUTIES IS NEEDED.

         Local officials say the CASU tenant board and lead agency roles and responsibilties
         are not always clearly defined and understood.

  C.    IN GENERA, THE CASUs ARE EFFECTIVELY MARKETING THEIR SERVICES.

         The CASUs do a goo to excellent job of marketing, according to 82 percent of the
         currnt users.
     A majority of potential users (83 percent) say they have received an explanation of
     the local CASU concept, and 77 percent say this explanation was effective to very ef­
     fective.

     Regarding the likelihoo of their agency paricipating in the CASU in the futue,
     most potential users say they wil probably or                    CASU services (57
                                                                       definitely use        some

     percent). (Thirt percent are unsure; 13 percent probably wil not.)


     Most local officials say CASUs ar actively marketing their services using a wide va­
     riety of methods.

     Many CASUs are adding, or plan to add, new services beyond those offered
     initialy.

D.   CASU AND CUSTOMER COMMUNICATIONS ARE EFFECTIVE.

     The CASU communications are rated as goo to excellent by 83 percent of the users.

     Most users say th CASU keeps them infonned through regular report,                                      periodic
     meetigs or newsletters.

E.   CASU BILLG PROCEDURES ARE FAIR , EQUITABLE AND GENERALLY
     UNDERSTOOD BY USERS.

     Most users say CASU biling procedures ar fair and equitable and that they gener­
     ally understand both the services biled and the biling procedures.

     Most users (75 percent) say they have either experienced
                                                                                        no biling problems       with
     the CASU or ar unawar of any                          billng problems.


     While a majority of users (70 percent) say their CASU prices its services on a unit
     cost basis, a substantial minority ( O percent) either indicate this is not the case or do
     not know.

     CASU EVALUATIONS AND AUDITS DESERVE INCREASED EMPHASIS.

     Both users and local CASU offcials appear to be somewhat confused or uninfonned
     about whether their CASU' s charer requires 1) an independent annual evaluation of
     CASU service delivery and user satisfaction , or 2) an annual fiscal audit.

     Only 32 percent of users and 44 percent of the local CASU offcials report an evalua­
     tion has been conducted at their CASU. Of course, in the case of newly operational
     CASUs, an evaluation might be premature.
       Only four users (6 percent) and the local officials at one CASU say their CASU' s   fis­
       cal records have been audited.

v. LOCAL OFFICIALS VIEW NATIONAL CASU POLICIES AND PROGRAM
   MANAGEMENT AS BASICALLY SOUND, BUT LOCAL MANAGERS NEED
  MORE IMPLEMENTATION HELP AND SUGGEST OTHER CHANGES.

  A.   LOCAL OFFICIALS GENERALLY BEUEVE CASU POUCIES, GUIDEUNES AND
       PROGRAM ASSUMPTIONS ARE SOUND AND WORKABLE.

       Offcials ' views split on whether continued reliance on voluntar initiation and   parc­
       ipation in CASUs wil produce the steady CASU program growth desired. A slight
       majority (55 percent) think steady program growth wil result under voluntar parici­
       pation rules; 45 percent disagree. The inspection team questions whether the rate of
       growth desired by the national CASU board and staff wil be realized under volun­
       ta   parcipation rules.

       All   offcials favormaintaining the current strong emphasis on local tenant board con­
       trol and flexibilty.

       A majority of officials agree with the basic policies governing CASU charering;
       however, there is some question on whether the national board and staf enforce these
       charering provisions.

  B.   LOCAL OFFICIALS VIEW THE NATIONAL CASU MANAGEMENT STRUCTURE
       AS GENERALLY EFFECTIVE , BUT THEY DESIRE SOME CHANGES.

       Offcials rate the national board as effective. They suggest the board: 1) strngthen
       the sta' s capacity to assist CASUs after charering, both before and during opera­
       tional star-up; and, 2) redouble their efforts to educate the agencies about the CASU
       progr at the national level.
       Local offcials say national CASU staff leadership is effective but can be improved
       by 1) developing a more stable and specialized staff and 2) focusing more effort on
       operational assistance and less on charering more CASUs. Local managers express
       a strong need for more implementation help from the national staff in becoming suc­
       cessfullyoperational.

       Loal offcials believe the national board and staff playa vital role in program expan­
       sion and in how well CASUs wil survive or thrive.

       The adequacy of national. CASU reporting mechanisms should be reassessed. Sev­
       eral indicators from local offcials suggest the need to consider improvements in the
       Prgram Activity Report and CASULINK.
C.   OVERALL , WCAL OFFICIALS SEE THE CASU PROGRAM                     AS   SUCCESSFUL
     DESPITE ITS NUMEROUS IMPLEMENTATION ISSUES.

     Local officials are somewhat uncertain about the current implementation pace and
     goals of the CASU program.

             A majority of local officials do not consider the national staff FY 1989 goal
             of increasing the number of charered CASUs from 14 to 36 as realistic and
             feasible.
             Officials split on whether the CASU staff FY 1989 goal of increasing the
             number of operational CASUs from 8 to 26 is realistic and feasible.
             A majority of offcials do not know (60 percent) if it is realistic to expect the
             CASU Program to yield cost savings in excess of $100 milion by the end of
             FY 1992. (Only 17 percent say yes; while 23 percent say no.

     Overall , local officials say the CASU program is successful and has significant cost
     saving potential. Offcials characterize as moderate to major the potential cost sav­
     ings that wil be realized by the individual CASUs and the overall CASU Program
     over the next 2 years.

     Loal offcials believe the CASU Program is successfully achieving its two basic
     aims, although they perceive grater   success in   improving service delivery and qual­
     ity than in achieving cost savings.


                                           Very                   Somewhat
                                       Successful                 Successful
       Improving the Delivery
       and Quality of Services             64%                       32%


                                           25%                       64%
                                 RECOMMENDATIONS


Recovery of Operating Costs

The CASU Progr should adopt a policy of full recovery of all operating costs, including in­
dict costs, though charges to users.
It would appear to serve the best long-tenn interests of both users and the CASU Program to
seek a full identification and recovery of the total costs of CASU operations through user bil­
mgs.

Cost Savings

The CASU staf should seek to 1) quickly identify verifiable savings being achieved in exist­
ing CASUs, 2) assure that an accurate and complete cost baseline is established when any
new CASUs are added to the progrm , 3) establish an effective mechanism to track cost. sav­
ing accomplishments over time, and 4) move to the fullest application of unit cost pricing of
services in al existing and new CASUs.

Comparative Assessments of Service Delivery Sources

The national CASU board and staff should promote comparative assessments of the most prac­
tical and cost-effective means of delivering CASU services, both among existing CASUs and
in new CASUs to be fonned.

Standard Role Descriptions for CASU Governing Officials

To enhance cooperation and shared expectations, all CASUs should be encouraged to adopt a
standad descrption of the roles and responsibilties of key CASU governing officials, such as
that developed as par of the Seattle evaluation.

Unit Cost Pricing

The CASU staf should encourage the broadest, appropriate application of unit cost pricing of
services in al new and existing CASUs. This should enhance user understanding and aid in
analysis of service cost trends and cost comparsons of alternative service sources.
Annual User Evaluations and Periodic Fiscal Audits

The National CASU staff and board should:

1. Fonnalize CASU policy to require a) annual user evaluations of CASU service delivery
   and user satisfaction , and b) periodic fiscal audits by the lead agency inspector general or
   audit agency.

2. Develop, cooperatively with operational CASUs, suggested practical protocols for conduct­
   ing CASU evaluations and audits. Regarding the evaluation protocol , we suggest use of
   simple evaluation tools.

Implementation Assistance

Drawing on the experience of operational CASUs, the national staff should begin developing:

1. Generic technical assistance guides to aid developing CASUs in achieving operational
   status in such areas as:

          organizing, staffing and trining CASU personnel
          forecasting workloads and developing budgets,
          alternative techniques for pricing CASU services; and

2. "How   To" guidelines for implementing the most common CASU core services, such as
  mail , photocopy and personal property. These guidelines could include key functional re­
  quirments and specifications, " Dos and Don ts, " and commonly encountered obstacles,
  with suggestions for overcoming them.

National CASU Reportng Mechanisms

The national CASU board and staff should:

1. Re-exame and revise, as necessar, the Program Activity Report content and schedule to
  assur that it adequa ely serves the needs of the national board and staf by providing    an ac­
  curate pictue of CASU services, users, operational status and problems and savings
  achievements.

2. Corrct implementation bugs in    CASULINK and promote its effective utilzation by local
  CASU offcials.
National CASU Goals

The national CASU board and staf should re-examine the feasibility of current CASU goals
for 1) new CASUs to be charered 2) CASUs to become operational , and 3) long tenn poten­
tial savings to be achieved. Respondent feedback and experience to date suggest these goals
may be overly optimistic.

COMMENTS ON THE DRAFT REPORT

We shard the draft of this report , and the supportg   technical report, with the CASU
Program National Board of Directors and the CASU national staf. They generally agree with
the report findings and concur, with only minor qualifications, with al our recommendations.
The full text of their comments is included in the appendix.

TECHNICAL REPORTS

In addition to this executive report we have prepared thre   technical report which address    spe­
cific aras of the CASU program. For furter      details on user   and local offcial assessments of
the CASU Program and national and local improvement options the reader should examne
the technical reports:



1) "User Assessment of Servces;

2) "User   and Governing Offcial Perceptions of Local Management; " and

3) " Local   Official Perceptions of National Policies and Implementation.
                   APPENDIX





COOPERATIVE ADMINISTRATIVE SUPPORT UNIT PROGRAM
 COMMENTS ON OIG FINDINGS AND RECOMMENDATIONS
......                                                        .., ..",.
                                                               \::'.,    !';- -' . ' ''':; -'/""
                                                                        ",,-;:    .)-               ..j\:

                                                                                                                 APPENDIX ..


                                                                                           LG,t; :
T T T T   OFFICE OF THE
          COOPERATIVE                                         t'::v'
                                                                        i"'\'.1
CASU ADMINISTRA TIVE                                      r-=
                                                          d'                     t"
                                                                                        0\                  .. I0
          SUPPORT PROGRAM                                                         "7'"
                                                                                    u'-
                                                                                    . 0




                                                              t:/

                                                                                                            0.
                                                                                              f'\



                                      May 26 .   1989




            H EMORANDUM FOR RICHARD P. KUSSEROW

                                INSPECTOR GENE

            FROM:               WARREN MASTER
                                PROGRAM DIRECTOR 

            SUBJECT:            aIG Draft        Reports: "
                                                         cutive Report
                                - A    Assessent of the CASU Program by
                                Users of CASU Services and Local

                                Officials, " (OAI-06-89-00860) and
                                Related Technical Repor s -­
                                INFORMATION
           Enclosed are our comments on the OIG Draft
                                                      Reports.
           On behalf of Paul Weiss and the National Board of

           Directors we thank you for the efforts of your
           Chester Slaughter, George DeLuna, Frank Almendarez
                                              staff;
           and Suzanne Murrin. We have circulated the rep
                                                           rt to

           our National Board of Directors, Interagency Staff

           and CASU Directors for their comments.
                                                   These
           comments represent a compilation of their
                                                                                  responses.
           Since the recommendations in the Executive Report are

           compiled from the three technical reports, we have

           addressed our comments to the Executiv
           recommendations. We found the technical Report
                                                     reports

           favorable towards both the concept and current

           operations of CASU; and, in general we agree wi
           findings of the reports.
                       th the


              have already begun planning ini tiati ves to respond
           to the report reco mendations and will be sharing

           this information wi th the CASU communi
           conference. In                          ty at our July

                            addition we will be discussing our
           plans to addr ss these issues wi th Chester Slaughter
              insure we are in accord wi th the intent of the

             ::ommendations .
           Enclosure
                       Comments on Spec i   fie Recommendations
             of the HHS Office of the Inspector General Draft Report

                  An A essment of the CASU Pro ram By Users of
                      CASU Services and Local CASU Officials


  Since the recommendations in the 

                                   Executive
  from the three technical reports we        Report are
                                      have addressed our compiled

                                                          comments

  to these recommendations.


  Recovery of Operatin
     Costs
 The CASU Program should adopt a policy of 

 operating costs, including indirect costs full recovery of all

 users.                                    I through charges to


 It would appear to serve the best long-term interests of both

 users and the CASU Program to seek a
                                      full identification and

 recovery of the total costs of CASU operations

 billings.                                               ' through user
 Comments
 Concur.

 Cost Savin


The CASU staff should seek to 

savings being achieved in existing       1) quickly identify verifiable

accurate and complete cost baseline is 

                                              CASUs, 2) assure that an

CASUs are added to the program, 3) establish       stablished
                                                                     hen any new
                                                              an effective

mechanism to track cost saving accomplishments over 

move to the fullest application of                                   time, and 

in all existing and new CASUs.                unit cost pricing of services


Comments
Concur wi th 1, 2 I and 4; part ially
more effective. means of 
            concur wi th       3.
                          determining actual savings, we will
. need
                                                       While We
continue to en ourage CASUs to measure cost savings by their

performance in the market
                               place. I
providing savings I their market sharef CASUs are I in fact
                                         will continue to
If I on the other hand, CASUs become cost                   increase.
have the right to extricate                 inefficient, agenc ies
                              themselves from the CASU and seek

more equi table and better priced  services
                                             elsewhere. We also
recognize the necess    i ty for
                              document ing the e sav       tngs.
because we do not wish to add an addi tional burden to opera Howe\'
CASUs by requiring a cost tracking                              t i 0n 


data already available to             system, we prefer to use 

                               tn c lculate cost savings.

                                           ~~~



       ompara t i ve Assessm   o f   v i     J i 
   Y Sources
     The national CASU board and staff should promote comparative

     assessments of the most practical and cost-

                                                effective
     delfvering CASU services, both among existing        means
                                                   CASUs and    of

                                                             in new

     CASUs to be formed.
     Comments
     Concur. The CASU staff will identify various means of
     effectively delivering CASU
                                  services, as options for CASU
     selec tion, depending on their
                                    circumstances.
     Standard Role Descriptions for CASU Governin

                                                        Officials
     To enhance cooperation and shared 

     be encouraged to adopt a standard expectations, all CASUs should
                                       descriptiori
     responsibilities of key CASU governing 
       of the roles and
     developed as part of the Seattle       officials, such as that

                                       evaluation.
 Comments
 Concur. While  we concur with this recommendation in
                                                      principle,
 the study itself pointed out that 87% of those surveyed b

 these roles and responsibilities to 
                      lieve
                                     be clearly defined, and

 74% surveyed believe they are clearly
                                             understood.
 Unit Cost Pricin
The CASU staff should encourage the 

application of unit cost pricing of broadest,
                                    services 
appropriate

existing CASUs. This should enhance user understanding
                                              in all new and
                                                         and
aid
in analysis of service cost trends and cost comparisons of

al terna t i ve service Sources.
Comments
Concur.

Annual User Evaluations and Periodic Fiscal Audi 


The National CASU Staff and Board 

                                      should:
1.     Formalize CASU policy to require
       of CASU service delivery and Usera) annual user evaluations

       periodic fiscal audi ts by the lead satisfaction, and

                                            agency inspector gen

       or aud   i t agency.
     Develop, coopera ti vely withoperat ional CASUs, suggested
     practical protocols for conducting CASU evaluations and

     audits. - Regarding the evaluation protocol, we suggest use of
     simple evaluation tools.

 Commen ts


 Concur. While we agree that periodic fiscal audits are
important, we intend to take care that an appropriate amount of

time for a CASU to take hold and become fully operational

(perhaps three years) be allowed be fore a fiscal audi
pI ac e .                                              t takes



Implementation Assistance


Drawing on the experience of operational CASUs, the national

staff should begin developing:


    Generic technical assistance guides to aid developing CASUs

    in achieving operational status in such areas
                                                          as:
          organizing, staff ing   and training CASU personnel.
          forecasting workloads and developing      budgets.
          alternative techniques for pricing CASU services.

     How To " guidelines for implementing the most common CASU

    core services, such as mail, photocopy and personnel

    property. These . guidelines could include key functional
    requirements and specifications ,      Dos and. Don   ts, "   and
    commonly encountered    obstacles, wi th     suggestions for
    overcoming them.
Comments
Concur.
National CASU Reportin
 Mechanisms

The national CASU board and staff      should:
    Re- examine and revise as necessary the Program Activity
    Report content and sChedule to assure that it adequately

    serves the needs of the national board and staff by providing

    an accurate picture of CASU services, users, operational

    status and problems and sav ings achievements.


    Correct implementation bugs in CASULINK and promote
    effective utili ation by local CASU officials.
               its
 Comments
 Concur.

Na t    ional CASU Goals

The national CASU board and staff should reexamine

                                                     the
feasibility of current CASU goals     for
                                       (1) new
chartered. (2) CASUs to become operational, andCASUs  to be
                                                 (3) long term

potential savings      to be achieved.
                                   Respondent feedback and
experience to date suggest these goa.ls may
                                            be overly optimistic.
Commen ts


Concur.




C Approval 

                            . tJ iN
               Mr. Paul T. Weiss

